E
Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-7
SElLA LAW LLC,
Petitioner,

v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.
AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of December, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE RD LEGAL FUNDING
PARTNERS, LP, RD LEGAL FINANCE, LLC, RD LEGAL FUNDING, LLC, AND RONI DERSOVITZ SUPPORTING
PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:
SEE ATTACHED
To be filed for:
Counsel ofRecord:
ALBERT GIANG
725 South Figueroa Street
31st Floor
Los Angeles, CA 90017
(t): (213) 629-9040
agiang@bsfllp.com
Other Counsel:
DAVID K. WILLINGHAM
MICHAEL D. ROTH
JEFFREY M. HAMMER
ZIWEIHU
SAMUEL CORTINA
BOIES SCHILLER FLEXNER LLP
725 South Figueroa Street
31st Floor
Los Angeles, CA 90017
(t): (213) 629-9040

Subscribed and sworn to before me this 16th day ofDecember, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39181

Counsel for Petitioner Seila Law LLC:
Kannon K. Shanmugam
Counsel of Record
Paul, Weiss, Rifkind, Wharton, Garrison LLP
2001 K Street, N.W.
Washington, D.C. 20006
(t): (202) 223-7300
kshanmugam@paulweiss.com

Counsel for Respondent Consumer Financial Protection Bureau:
Noel J. Francisco
Counsel ofRecord
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, D.C. 20530
(t): 202-514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Court-appointed amicus curiae in support of the
judgment below on the question presented by the petition:
Paul D. Clement
Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(t): 202-389-5000
paul.clement@kirkland.com

